<html>
<title> - TRANSATLANTIC SECURITY IN THE 21ST CENTURY: DO NEW THREATS REQUIRE NEW APPROACHES?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                   TRANSATLANTIC SECURITY IN THE 21ST
                    CENTURY: DO NEW THREATS REQUIRE
                            NEW APPROACHES?
=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 17, 2010

                               __________

                           Serial No. 111-86

                               __________

        Printed for the use of the Committee on Foreign Affairs



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                    U.S. GOVERNMENT PRINTING OFFICE
55-514 PDF                    WASHINGTON: 2010
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="93f4e3fcd3f0e6e0e7fbf6ffe3bdf0fcfebd">[email&#160;protected]</a>  











                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
JOHN S. TANNER, Tennessee            CONNIE MACK, Florida
GENE GREEN, Texas                    JEFF FORTENBERRY, Nebraska
LYNN WOOLSEY, California             MICHAEL T. McCAUL, Texas
SHEILA JACKSON LEE, Texas            TED POE, Texas
BARBARA LEE, California              BOB INGLIS, South Carolina
SHELLEY BERKLEY, Nevada              GUS BILIRAKIS, Florida
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
VACANT<greek-l>Until 5/5/10 deg.
                   Richard J. Kessler, Staff Director
           Yleem Poblete, Republican Staff Director<greek-l>
         Jasmeet Ahuja, Professional Staff Member deg.<greek-l>
       David Fite, Senior Professional Staff Member deg.<greek-l>
          Jessica Lee, Professional Staff Member deg.<greek-l>
     Alan Makovsky, Senior Professional Staff Member deg.<greek-l>
   Pearl Alice Marsh, Senior Professional Staff Member deg.<greek-l>
     Peter Quilter, Senior Professional Staff Member deg.<greek-l>
      Edmund Rice, Senior Professional Staff Member deg.<greek-l>
          Daniel Silverberg, Senior Deputy Chief Counsel deg.
            Amanda Sloat, Professional Staff Member<greek-l>
           Kristin Wells, Deputy Chief Counsel deg.<greek-l>
              Shanna Winters, Chief Counsel deg.<greek-l>
        Brent Woolfork, Professional Staff Member deg.<greek-l>
         Robert Marcus, Professional Staff Member deg.<greek-l>
     Diana Ohlbaum, Senior Professional Staff Member deg.<greek-l>
      Laura Rush, Professional Staff Member/Security Officer deg.
   Genell Brown, Senior Staff Associate/Hearing Coordinator<greek-l>
                     Riley Moore, Deputy Clerk deg.


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Thomas Graham, Senior Director, Kissinger Associates, Inc. 
  (Former Senior Director for Russia on the National Security 
  Council).......................................................     8
The Honorable Wolfgang Ischinger, Chairman of the Munich Security 
  Conference (Former German Ambassador to the United States).....    21
Ms. Sally McNamara, Senior Policy Analyst in European Affairs, 
  Margaret Thatcher Center for Freedom, The Heritage Foundation..    31
Mr. Dmitri Trenin, Director, Carnegie Moscow Center..............    40

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Thomas Graham: Prepared statement............................    11
The Honorable Wolfgang Ischinger: Prepared statement.............    23
Ms. Sally McNamara: Prepared statement...........................    33
Mr. Dmitri Trenin: Prepared statement............................    43
The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida: Letter dated December 11, 2009, to 
  the Honorable Barack H. Obama, President of the United States, 
  from Members of Congress.......................................    61

                                APPENDIX

Hearing notice...................................................    72
Hearing minutes..................................................    73
The Honorable Howard L. Berman, a Representative in Congress from 
  the State of California, and Chairman, Committee on Foreign 
  Affairs: Prepared statement....................................    75
Questions for the record submitted by the Honorable Barbara Lee, 
  a Representative in Congress from the State of California, and 
  responses from:
  Mr. Thomas Graham..............................................    77
  Ms. Sally McNamara.............................................    79
  Mr. Dmitri Trenin..............................................    83


TRANSATLANTIC SECURITY IN THE 21ST CENTURY: DO NEW THREATS REQUIRE NEW 
                              APPROACHES?

                              ----------                              


                       WEDNESDAY, MARCH 17, 2010

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
2172, Rayburn House Office Building, Hon. Howard L. Berman, 
(chairman of the committee) presiding.
    Chairman Berman. The committee will come to order. After 
the ranking member and I make our opening remarks, I will 
recognize the chairman and ranking member of the Europe 
Subcommittee for 3 minutes to make opening statements and other 
members of the committee for 1 minute should they wish to make 
opening remarks. Members are welcome to place written 
statements in the record, and we welcome our panelists and 
everyone who is with us for a hearing on a subject that is 
actually much more interesting than it sounds.
    For over four decades after the Second World War, the 
United States and Europe were focused on confronting the threat 
posed by the Soviet Union. That threat disappeared with the end 
of the Cold War, but it was replaced with a much wider, more 
complex array of security challenges, many of which emanate 
from outside the Euro-Atlantic region. Do we have the right 
tools, institutions and approaches to deal with these new 
threats? That is the subject of our hearing today.
    In addition to the potential instability in Southeastern 
Europe, we are confronting the ever-growing likelihood of a 
nuclear-armed Iran, the menace of al-Qaeda that continues to 
spread around the world, a resurgent Taliban in Afghanistan and 
Pakistan, and the proliferation of weapons of mass destruction.
    We also need to determine how to deal collectively with 
concerns such as energy security, sea piracy and climate 
change.
    The existing transatlantic and European institutions--such 
as NATO, the Organization for Security and Cooperation in 
Europe, or OSCE, and the European Union--have done a remarkable 
job building peace and prosperity in the Euro-Atlantic zone for 
many decades. But they are now re-evaluating their roles and 
capabilities to ensure that they can confront the challenges of 
the 21st century as effectively as possible.
    NATO has been an extraordinarily successful military 
alliance for the past 60 years, but the purpose for which it 
was created no longer exists. Since the Cold war has ended, it 
has transformed to address new threats--but as demonstrated by 
the current difficulty in obtaining sufficient troop levels in 
Afghanistan, many alliance members question the desirability of 
engaging in out-of-area missions. Other allies question whether 
NATO should--and indeed is structured to--take on issues such 
as energy security.
    As NATO reviews its Strategic Concept, what should be its 
mission for the foreseeable future, and what changes, if any, 
need to be made to the structure of the alliance?
    The OSCE is the Euro-Atlantic organization with the most 
comprehensive membership, comprising 56 countries, all with 
equal standing. But Russia has argued that rather than 
fulfilling its goal of a continent-wide security organization, 
the OSCE has focused mostly on human rights and so-called 
``soft'' security concerns. Thus, Russia's leadership has 
reiterated its call to strengthen and expand the OSCE's 
responsibilities.
    Following its meeting in Corfu last June, the OSCE set up a 
process to consider ways to increase security from Vancouver to 
Vladivostok. Can and should the OSCE become the preeminent 
security organization in the transatlantic region and do more 
to strengthen its political-military and economic and 
environmental dimensions in addition to its human dimension?
    Finally, the European Union has evolved from its initial 
function of preserving peace between France and Germany to 
developing a single economic union and seeking a more unified 
approach to foreign policy among its 27 members. The U.S. has 
often been critical of the EU for a lack of coherence in its 
foreign policy decision-making and its comparatively low 
defense spending. The recent ratification of the Lisbon Treaty 
is expected to herald a more united common security and defense 
policy--maybe.
    The EU is effectively handling humanitarian and training 
responsibilities in Afghanistan, and it has conducted 
peacekeeping missions in Chad, the Congo and the Balkans. But 
is the EU adequately structured and resourced to address the 
new threats, and do we want it to do more?
    While these three institutions are studying these issues 
internally, and academic commentators--including our 
witnesses--have begun to identify the questions, there have 
been few answers about the next steps. Some people talk about 
strengthening the existing institutions to address the new 
threats, but they do not say how or whether that is all that is 
necessary. Others contend that we need to fundamentally rethink 
and restructure how the transatlantic community addresses these 
new threats.
    This debate has also been fueled by the re-emergence of 
Russia as a major power. The Euro-Atlantic community learned 
the hard way in August 2008 that none of its institutions was 
sufficient to prevent the conflict between Russia and Georgia.
    Russian President Medvedev has proposed a new treaty to 
rectify what he perceives as the failure of existing structures 
to create a unified security sphere in Europe. His treaty is 
centered on the concept of indivisible security: That is, that 
one country cannot guarantee its security at the expense of 
another's. Some in the West reject this proposal, arguing that 
it is designed to undermine and weaken NATO. Others believe it 
has generated an important dialogue about the existing 
institutional framework. How should the transatlantic community 
respond to Russia's proposal?
    Russia is a vital actor on issues such as Iran and 
Afghanistan, nonproliferation and counterterrorism. While a new 
treaty may not be necessary, do we now have an historic 
opportunity to put the Cold War behind us once and for all and 
forge a strong partnership to face the new threats together? Is 
it time to reconsider the prospect of Russia joining NATO?
    The issues that will be discussed during this hearing are 
vital to the security of all of our countries. I am delighted 
we have such an extraordinary and distinguished panel of 
experts with us today to help us consider these issues from the 
American, European and Russian perspectives, and we look 
forward to their testimony. But before we go to their 
testimony, I want to turn to the ranking member for any 
comments that she may wish to make.
    Ms. Ros-Lehtinen. Thank you so very much, Mr. Chairman, and 
happy St. Patty's Day to you. I am not one of those who think 
it fashionable to believe that this is now the Pacific Century 
and that the transatlantic relationship between the United 
States and Europe is largely unremarkable. On the contrary, 
what happens in Europe remains very important to us today, just 
as it was important to earlier generations of Americans.
    There are two major issues that I hope will be discussed in 
depth this morning: The European relationship with Russia, as 
the chairman pointed out; and the role that Europe needs to 
play in the world.
    We all continue to want what was sought when the Cold War 
ended 20 years ago: ``A Europe whole and free.'' However, it is 
naive to think that can be accomplished with the kind of regime 
that rules Russia today. We should not welcome into our ranks a 
regime that: Sponsors widespread corruption; represses its 
political opponents; and mounts open aggression and 
intimidation against neighboring countries. We should also 
recall the lessons of history and how appeasement in Europe has 
been a certain path to a bitter, devastating outcome.
    The leaders in Moscow today, despite their occasional 
soothing statements, quite simply recognize that they need to 
create the image of an ``enemy'' for their people in order to 
justify their continued rule. Our efforts to appease them will 
only lead them to raise the ante. Why? They have done little to 
nothing to set a strong foundation for Russia's future economic 
progress. They have also done little to set forth a realistic 
foreign policy that will provide true security for Russia in 
the future.
    Instead, they have enriched themselves while sponsoring the 
most shameful methods to eliminate their internal critics, all 
the while keeping the Russian people distracted by creating a 
facade that their country faces a threat from the West, 
particularly from the United States.
    It is easy to see what is wrong with the policies of those 
who lead Russia today, but we need to see what is wrong with 
our own policies toward Russia.
    We cannot expect to have any real credibility if we condemn 
Russia's invasion of Georgia, but then make excuses for that 
invasion, ignore Russia's continue occupation of Georgian 
territory, re-admit Russia into NATO's councils and then offer 
to sell it our advanced weapons.
    We cannot make major reductions in our strategic nuclear 
forces and play with negotiating away our right to deploy 
strategic missile defenses simply to cater to the Russian 
leadership.
    We cannot talk of human rights with sincerity if we ignore 
the all-too-obvious campaign of beatings and murders of 
independent reporters, lawyers and activists in Russia in 
recent years. No. This is not the time for appeasement, arms 
sales and abandonment of those struggling for democracy in 
Russia and the countries that once formed the Soviet Union.
    It is important that the leading states of Europe set for 
themselves a role that reflects the reality of the world as it 
is and of the events and policies in Russia as they are rather 
than continuing to take the paths of least resistance and 
wishful thinking.
    For decades during the Cold War, the democracies of Europe 
were basically asked to focus only on their own defense from 
attacks by the Soviet block while the United States provided 
leadership around the world and invested in the preparedness of 
its troops, in global force projection capabilities, in the 
introduction of precision-guided munitions and advanced 
technologies; the states of Europe grew comfortable with 
deploying forces that focused mostly on their own defense.
    Now the United States seeks real, comprehensive support 
from the leading states of Europe in the fighting in 
Afghanistan. I am hopeful that the attempts by leading 
countries within the European Union to: Develop strategic 
airlift capability; to procure advanced military technologies; 
and to prepare at least some troops for rapid deployment are a 
sign that they recognize that Europe cannot continue to leave 
the United States to assume all the responsibility for global 
security and stability.
    I am hopeful that the EU's mission to combat piracy off the 
coast of East Africa is indeed a sign of new activism, but I am 
not overly optimistic. The leading European states continue to 
allocate insufficient funding to defense, and, when they do 
deploy troops to truly important military operations, such as 
in Afghanistan, many of them limit their troops' exposure to 
combat by means of ``caveats.''
    The leading European governments cannot expect the United 
States to continue to offer our guarantee for their European 
security if those governments continue to carry on as usual by: 
Flirting with sales of arms to China and Russia; trading with 
countries like Iran; and looking away when dictators repress 
opposition whether in Cuba, Russia, Sudan or Iran. Europe 
remains important to the United States, obviously, but our 
calls for support must not go unheeded.
    Moreover, the future of small states, like Georgia, cannot 
be sacrificed for the sake of European commerce and 
unwillingness to stand up in defense of a ``Europe whole and 
free.'' Finally, we all welcome the European Union's efforts to 
improve European defense capabilities, but we hope that those 
efforts will not come at the expense of the NATO alliance and 
its ability to ensure the security of Europe and to address new 
threats.
    Thank you, as always, Mr. Chairman, for the opportunity to 
speak. Thank you.
    Chairman Berman. Well, thank you very much, and now I am 
pleased to yield 3 minutes to the chairman of the Europe 
Subcommittee, Mr. Delahunt.
    Mr. Delahunt. Well, thank you, and I want to extend a 
welcome to all of our panelists, but particularly to Ambassador 
Ischinger, who served his country so well here and was a 
resource for members of this committee as well as Dmitri 
Trenin, whom I have had the opportunity to meet in Moscow and I 
must say is well respected and well regarded both here and in 
Russia and has done much to advocate for democracy in Russia. 
Mr. Chairman, the evolution of European security and the 
concept of an integrated Europe in the destructive aftermath of 
World War II has really been dramatic and swift in an 
historical context.
    Through a shared commitment with the United States, the 
modern transatlantic security structure was developed to deter 
the Soviet Union as you have said and to promote cooperation 
and prosperity for Europe. When one views the historical 
context from Churchill's 1947 speech in Zurich calling for 
closer European integration and cooperation, the formation of 
NATO in 1949 and Schumann's 1951 speech that led to the 
European Coal and Steel Community, the end result is that the 
27-member European Union enjoys an unprecedented level of peace 
on their continent, which is welcome by all.
    But with peace comes a recognition that today's threats are 
different. The Cold War is over, and the development of a new 
security strategy taking into account the United States, Europe 
and Russia must take a new turn. In fact, I believe the shared 
common interest of the United States and Europe must view 
Russia as a potential partner for continued peace and security. 
In today's globalized world, the relationship is simply too 
important to ignore. It is not going to go away. Russia is an 
essential partner for security and progress in Europe and its 
relationship with NATO, and OSCE is an important foundation to 
overcome East-West security concerns.
    While NATO should remain the cornerstone to Europe's 
security, their ongoing strategic review should ensure 
pragmatic dialogue and policies toward Russia. While there is 
diversity in the opinions and beliefs as to the blueprint and 
infrastructure, it is imperative that future transatlantic 
security continues to embrace the concept of Europe whole, free 
and united, and with that, I yield back.
    Chairman Berman. The time of the gentleman has expired, and 
on behalf of the ranking member of the Europe Subcommittee, but 
in his absence, I yield 3 minutes to the gentleman from 
California, Mr. Rohrabacher.
    Mr. Rohrabacher. Yes. Thank you very much, Mr. Chairman, 
and I welcome the panelists. I am going to have to run in and 
out of this hearing because I have another hearing right down 
the hall in another major committee which I am a member. Just a 
few points, and I will be coming back. If I can't hear all your 
testimony, I will read it. Let me just note people understand 
that I worked for Ronald Reagan, and I was one of his primary 
speech writers, and even before that, I was the ultimate cold 
warrior.
    I was in Czechoslovakia with the students there in 1968. I 
went to Vietnam to work with anti-Communist elements there in 
1967, and I have been engaged in a lot of anti-Communist 
activity in my life, but the Cold War is over, and Russia is no 
longer dominated by the Communist Party. It is time for us to 
understand the Cold War is over, and people can't get over 
that, and people keep vilifying Russia at our expense. The fact 
is the challenge we face today is far different than the one 
that I faced when I was younger and that our country faced 
years ago.
    The fact is radical Islam is on us. Radical Islam wants to 
slaughter our people. We need Russia on our side. We do not 
need to vilify Russia. We recognize their shortcomings, work 
with them on it and try to establish a positive relationship. 
China is the next major challenge we face. It is emerging, and 
there have been enormous changes in Russia, anyone who has 
visited Russia knows that. I went to Russia in 1985 as part of 
a delegation from the White House, and I have been back a 
number of times. It is a different country in a better way.
    Well, the fact is, China hasn't had one iota of reform. 
They still slaughter people for their religious beliefs in 
China, the Falun Gong and others. They are rebuilding their 
military and aimed it at us. Yet, we end up vilifying Russia 
and not permitting Russia to have any of the trade benefits 
that we have heaped upon China. We need to have a new alliance 
system that will deal with the challenges of the future, and 
that new alliance system has to include Russia, or the United 
States will be vulnerable.
    It is time to get out of the Cold War mentality and figure 
out what is going to work to create a more peaceful world in 
the future to meet these serious challenges. Mr. Chairman, I 
appreciate you holding this hearing because we need to 
encourage a national discussion on how we are going to shape 
the future and what alliances we have to have if we are going 
to have a peaceful future. Thank you very much.
    Chairman Berman. I thank the gentleman, and I am going to 
yield 3 minutes. Our committee is very privileged to have on it 
the current president of the North Atlantic Treaty Organization 
Parliamentary Assembly in a statement that not everyone thinks 
we have gone to a Pacific orientation. The gentleman from 
Tennessee, Mr. Tanner.
    Mr. Tanner. Thank you very much, Mr. Chairman, and thank 
you for having this hearing, which is quite timely. Welcome to 
the panel. I may have to go. We have got a markup going in 
another committee, but I too will read the testimony if I am 
not here partially to listen to it. I will be very brief. As 
all of you know, NATO is currently undergoing its own self-
analysis and a new strategic concept. The panel of experts 
chaired by Former Secretary of State Madeleine Albright was 
just down at NDU for a session, which I attended as the 
President of the NATO Parliamentary Assembly.
    We are eager and will participate, and next weekend, the 
NATO PA standing committee will finalize our contribution to 
and our intervention to the Secretary General, who was here, 
and who we had a meeting with 2 weeks ago. Having said all 
that, this new strategic concept I would ask that you give your 
opinion as to what should or should not be included because it 
is critically important. I may have to re-assess some of my 
positions because I find myself agreeing with Mr. Rohrabacher 
on several points that he made, so either he or I may wish to 
reconsider our position, but seriously, this idea of NATO is in 
many respects sort of like the U.N.
    I get so disgusted with the U.N., but if we didn't have a 
place for people to go and talk, we would have to create one, 
and NATO, for all of its shortcomings, if it were not to exist, 
we would be well-advised to create something similar, and so 
this strategic exercise is very, very timely, and I too agree 
what has been one of my frustrations is sometimes the inability 
of the Russian members of the DUMA who attend our NATO meetings 
to set aside those issues that we disagree on and dive 
wholeheartedly into those that we do and help us, nuclear 
proliferation, radical fundamentalism.
    All of those things are in our mutual interest to work 
together on, and yet we get clouded by our inability to set 
those aside or work on those because of the other areas which 
made us great. Having said all that, I will look forward very 
much to your contributions. Thank you for being here.
    Chairman Berman. Thank you. The time of the gentleman has 
expired. Does anyone else seek recognition for opening 
statement? The gentleman from Georgia, Mr. Scott, is recognized 
for 1 minute.
    Mr. Scott. Thank you, Mr. Chairman. Let me just agree with 
several of the comments that have gone before. It is really 
time for leadership to take center stage on this whole issue of 
how to deal with Russia in a modern concept. As it has been 
stated, we are no longer in the Cold War, but leadership 
requires boldness. It requires looking at situations with the 
intelligence and common sense that presents the immediacy of 
now and the future, and there is no question about it.
    When it comes to every major issue facing Europe and the 
north Atlantic, Russia is dead center. I am a member of the 
NATO Parliamentary Assembly and have an opportunity to have 
visited Russia, and I have engaged with them. It is not a 
perfect country, but let me just say if we are going to have 
global peace, if we are going to learn how to work with our 
resources in a way that provides for energy security, for a way 
to deal with nuclear non-proliferation.
    There is no question that we have to re-set our 
relationships with Russia and be bold enough to entertain the 
possibility of looking at Russia as a partner with NATO. Thank 
you, sir.
    Chairman Berman. The time of the gentleman has expired, and 
now I am very pleased to introduce really an excellent panel. 
Several of them I know. I actually, on one of those rare 
occasions, did my homework and spent until very late last night 
reading all their testimony, and I do commend it very much to 
the members of the committee. There are really some fascinating 
and interesting statements there.
    Our first witness is Thomas Graham. He is senior director 
at Kissinger Associates. He was special assistant to the 
president and senior director for Russia on the National 
Security Council staff from 2004 to 2007, and director for 
Russian Affairs at the NSE from 2002 to 2004. From 2001 to 
2002, Mr. Graham served as the associate director of the policy 
planning staff at the Department of State.
    Ambassador Wolfgang Ischinger is the chairman of the Munich 
Security Conference. He previously served as Germany's Deputy 
Foreign Minister from 1998 to 2001, Ambassador to the United 
States from 2001 to 2006 and as Ambassador to the U.K. from 
2006 to 2008. In December, Ambassador Ischinger became the co-
chair of the Euro-Atlantic Security Initiative, which will 
examine the security challenges facing the Euro-Atlantic region 
and prepare recommendations for reforming the existing 
architecture.
    Ms. Sally McNamara is senior policy analyst in European 
Affairs at the Margaret Thatcher Center for Freedom of the 
Heritage Foundation. Before joining Heritage, she worked at the 
American Legislative Exchange Council as director of 
International Relations. Previously, she worked as an aide in 
the European Parliament and as a press officer for the UK 
Conservative Party.
    Mr. Dmitri Trenin is director of the Carnegie Moscow 
Center. I have known him a long time, but not that long. From 
1972 to 1993, he served in the Soviet and Russian Armed Forces 
during which he spent 6 years from 1985 to 1991 as a staff 
member of the delegation to the United States-Soviet nuclear 
arms talks in Geneva. After retiring from the Russian Army, Mr. 
Trenin held posts as a senior research fellow at the NATO 
defense college in Rome and a senior research fellow at the 
Institute of Europe and Moscow. Thank you all very much for 
being here. Mr. Graham, why don't you start? All the testimony 
in their entirety will be put into the record.

  STATEMENT OF MR. THOMAS GRAHAM, SENIOR DIRECTOR, KISSINGER 
  ASSOCIATES, INC. (FORMER SENIOR DIRECTOR FOR RUSSIA ON THE 
                   NATIONAL SECURITY COUNCIL)

    Mr. Graham. Mr. Chairman, members of the committee, thank 
you for this opportunity to testify on a very timely issue of 
transatlantic security. As you said, Mr. Chairman, the Cold War 
is over, but I would like to stress that the post-Cold War 
world is also over. The hopes that we had a generation ago that 
we would be witnesses the march of democracy and free markets 
around the globe under American leadership is not the case 
today.
    Rather, we have entered a period of tremendous global flux 
and uncertainty that will endure until a new global equilibrium 
is established. This has consequences for Europe and European 
security. First, and of greatest importance, I think it is 
clear that global dynamism is shifting away from Europe and the 
Atlantic region to Asia and the Pacific region. Now, Europe 
remains important. It remains important for the United States 
for a variety of reasons. Our closest traditional allies lie in 
that area.
    But Europe and the struggle for domination in Europe is no 
longer the central drama of the current period, and that means 
that the United States no longer has to worry about the 
domination of Europe by a single power. Remember, we fought two 
hot wars and one cold war in the 20th century specifically to 
prevent the domination of Europe by a single power. Today, in 
the current environment, we need a unified Europe. A unified 
Europe that can work with the United States in dealing with 
global challenges in Europe and beyond.
    This means that the United States should be encouraging a 
much greater role for a unified Europe both within NATO and the 
EU as a security organization that is capable of dealing with 
the problems in Europe and beyond, so the goal of the United 
States should be through its policies and actions to encourage 
the further unification of Europe, specifically, the further 
unification of Europe in defense and security policy. Now, Mr. 
Chairman, you have described in great detail the global 
challenges that we face, and I think you are absolutely right 
that the challenges now emanate from beyond Europe and not so 
much from inside Europe.
    That is a consequence very much of the success of the 
policies that the United States and our European allies have 
pursued for the past 65 years. In fact, the concerns about 
instability in Europe and security threats emanating for Europe 
is probably at its lowest in history, so we need to work on the 
global challenges, and here Russia becomes a much more 
important player. Now, Russia is of course a major challenge to 
all of us in the United States and Europe.
    It is a new Russia, but it is also a Russia that has made 
clear over the past several years that it intends to pursue an 
independent foreign policy as Russia has historically, but this 
is a Russia that contrary to where it was in the immediate 
post-Cold War environment no longer seeks integration with the 
West and specifically with Europe. Now, this presents two 
challenges for us. The first is, how do we deal with the states 
of the former Soviet Union? This is an area that is critical to 
Russia's great power aspirations and the way they think of 
themselves as a great power.
    Historically, this is the region that has given Russia its 
geopolitical heft in the world. For various reasons, the 
Russian elites believe that primacy in this region is important 
for Russia's security and prosperity today. The Russians 
believe that they ought to have a zone of privilege in the 
former Soviet space to use President Medvedev's formulation. 
Now, clearly neither Europe nor the United States is prepared 
to recognize a Russian sphere of influence in the former Soviet 
space, but we do need to find a way that we can work with the 
Russians to minimize the risk that challenges there will 
undermine our ability to work elsewhere.
    The second challenge we face is how Russia defines its own 
interest in Europe and how we should define those interests. As 
a process of European integration proceeds, much of what 
happens on the continent become in a sense European domestic 
affairs in which Russian involvement should be minimal. Yet, 
Russia believes that it should play a central role in Europe. I 
believe that it can compete as an equal with the major powers 
of Europe such as the U.K., France and Germany, but it realizes 
that it cannot compete effectively against a unified Europe 
which would have the potential power capability that far 
outweighs Russia much the way the United States power outweighs 
Russia today.
    We will have to figure out a way in which we can in a sense 
bring Russia's sense of its own interest in Europe in 
conformity to the way the world is developing. Now, do we need 
new mechanisms, new architecture to deal with these new 
challenges? I would argue no, but clearly the architecture 
needs to evolve to take into account the new situation. A few 
preliminary thoughts on how we ought to do this. First, we need 
to move to a situation in which more of the discussion really 
has three pillars: The United States, a unified Europe in the 
guise of the European Union and Russia, and we should be 
setting up a triangular discussion, U.S.-EU, EU-Russian, United 
States-Russian discussions on a whole range of security issues.
    We already have annual U.S.-EU summits, semi-annual EU-
Russian summits. We need to regularize and institutionalize 
United States-Russian summits, which now tend to be ad hoc, and 
make them a regular part of the architecture. We also ought to 
consider putting in place at least an annual event that brings 
the United State, the EU and Russia together specifically to 
discuss security challenges both in Europe and beyond. Finally, 
with regard to NATO itself some suggestions: First, we need to 
encourage the development of a European pole inside NATO.
    This is already taking place, but the United States needs 
to be more forward-leaning in encouraging this. Obviously, this 
will change the way NATO operates, but I think that will be to 
our advantage, and it will encourage the Europeans to take more 
responsibility for what happens inside Europe as well as to 
develop the capabilities to deal with the global challenges. We 
ought to take the NATO Russia Council and focus that on the 
challenges that emanate beyond Europe.
    Working with the Russians in developing missile defense 
capabilities, counterterrorism, counternarcotics, piracy and 
other such issues, and eventually the NATO-Russia Council over 
the longer term should become in effect a United States-EU-
Russia forum for discussing these challenges. In addition, we 
need to reassure many of our allies, particularly in Eastern 
Europe, that Article V means something within NATO, and that 
means that we need to continue to develop contingency planning 
for the defense of those areas and begin to practice and 
conduct exercises to demonstrate that we have the capability to 
do that.
    Finally, we also need to provide assurances for the 
countries that lie between Russia and NATO, specifically 
Ukraine and Georgia, and one thing that we ought to consider is 
a way of reiterating multi-lateral security guarantees for 
these countries so that they can feel more comfortable that 
they are not going to be a zone of geopolitical competition 
between Russia, the United States and Europe. Finally, I think 
that the long-term goal and ambition for the United States 
ought to be to turn NATO into a Pan-European security 
organization based on the pillars of the United States, the 
European Union and Russia.
    Clearly, this is a long-term ambition. The goal is distant, 
but I think it provides a way of organizing our thinking at the 
moment. One final point on process; the days are long since 
past when the United States and Europe can agree on a policy or 
a set of programs and then present them to the Russians and 
hope that the Russians will acquiesce in fete accompli. We need 
to have Russia at the outset of our discussions if we want them 
to be with us at the end.
    I think it is very important that as we discuss the NATO 
concept, for example, that we do reach out as we have already 
to the Russians to get their views, to take them into account, 
and to see the extent to which we can meet their interest or 
accommodate them without of course jeopardizing the long-term 
interest of the United States or Europe. Thank you.
    [The prepared statement of Mr. Graham 
follows:]<greek-l>Thomas Graham deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Thank you. Ambassador Ischinger?

STATEMENT OF THE HONORABLE WOLFGANG ISCHINGER, CHAIRMAN OF THE 
  MUNICH SECURITY CONFERENCE (FORMER GERMAN AMBASSADOR TO THE 
                         UNITED STATES)

    Ambassador Ischinger. Thank you, Mr. Chairman. It is a 
privilege and a personal pleasure for me to be back here in my 
personal capacity. You have my written testimony. Please allow 
me to summarize what I believe are my key views and salient 
points. I will be very brief. First, I think it is important to 
note that even if our main challenges of today and tomorrow 
present themselves in areas far away from Europe, far away from 
the transatlantic region, Europe and the United States are and 
will continue to be, will remain each other's principal and 
best allies. That is how we Europeans look at it, and it is our 
hope that it is a view that is shared by the United States.
    By the way, if you look at transatlantic trade and 
investment statistics, the economic data support this political 
desire very strongly. Let me add also that I think it is 
important that from the United States you show a bit of 
patience with post-Lisbon EU. We Europeans have learned to 
understand that an incoming U.S. administration sometimes needs 
a bit of time to get into gear. A lot of things in Europe are 
new, so I would invite you to allow the EU to come to grips 
with the new system. I think we will be able to do better. We 
will be more effective in the future, but we take time.
    Second, I share the view of those who believe that the key 
issue for the transatlantic community as we look at current and 
future challenges is Russia. My view is if we get Russia right, 
most of the other things, cyber security, terrorism and many 
other challenges, can be addressed more easily than if we do 
not get Russia right. This therefore is the key issue. During 
the debate on NATO enlargement, which began 15, 16 years ago, 
agreement was reached with NATO that NATO enlargement should be 
accompanied by initiatives which would address Russia's 
concerns.
    At the time, in 1997, the NATO Russia Council was 
established, and while I believe this was the correct decision 
at the time, this council and its later incarnations never 
really lived up to expectations. In retrospect, this forum was 
never really used for discussing common challenges and 
searching for common strategies. As a result, the relationship 
between Russia and NATO, between Russia and the West, between 
Russia and Europe became increasingly burdened.
    Third, Mr. Chairman, Russia for its part has repeatedly 
expressed the view that they feel, rightly or wrongly, 
marginalized in Europe. The proposal for a new security treaty 
as presented by President Medvedev is a demonstration of this 
frustration, but more importantly this security treaty with all 
its flaws and the many question marks that one can attach to 
this proposal, it does show that Russia considers itself as an 
element of Europe, as belonging to Europe, as wishing to be 
part of the European security architecture. I believe that is 
very important.
    Fourth, our key problem today between the West and Russia 
is a fundamental lack of mutual trust. I have no time here to 
go into why there is such a lack of trust, but I believe that 
rebuilding and building trust has to be at the core of our work 
as we move forward. The work which is currently being 
undertaken to develop the future strategic concept for NATO 
offers, in my view, a historic opportunity to deal with these 
issues.
    It is a window of opportunity to develop something which I 
would like to call an offer for a new grand bargain, strategic 
bargain with Russia. The new NATO strategic concept should 
reaffirm, as it has just been said, the guarantee of Article V 
binding all members of the alliance together, but this concept, 
in my view, should also encourage sustained efforts to link 
Russia to the West or at a minimum to make sure that Russia 
understands that from our side of the bargain, of the possible 
bargain, the door is open, and it is for Russia to accept it or 
to decline the offer.
    Sixth, regarding the institutional relationship between 
Russia and NATO, in a way we were further advanced 15 years ago 
than we are today. In the mid-'90s, as I recall, the Clinton 
administration occasionally raised the question should or 
should we not consider Russia a potential future member of the 
alliance?
    I would like to inform you, Mr. Chairman, and the members 
of the committee that recently a colleague of mine, the former 
Secretary of Defense of Germany, Vocko Ruhe, suggested that we 
should go back to those ideas and reiterate an offer in 
principal even if we are all agreed that there are many areas 
in which Russia lacks the conditions to be a member of the 
alliance, but we should make clear that if Russia wishes to 
comply with the requirements, there is no obstacle in principal 
to consider Russia a potential member of the Euro-Atlantic 
Security institutions, including NATO, in the future.
    Finally, Mr. Chairman, allow me to say that one of the 
areas where I believe that trust building can be done in an 
effective and in a useful way is the area of nuclear weapons. 
From a European point of view, I speak as a West European, the 
ongoing United States-Russian arms control discussions are an 
important element in rebuilding trust, and that is why some of 
us in Western Europe have raised the question of whether we 
should not also raise the issue of negotiations about the 
remaining tactical nuclear weapons on both sides, in Western 
Europe, American weapons and of course if I can say it in this 
way the unaccounted for weapons on the Russian side, which have 
been a source of great concern for us over decades and many 
years.
    In this sense, Mr. Chairman, trust building and keeping the 
door open and thinking out of the box on how we can organize 
our work with Russia in the future in my view is the key 
challenge, the key strategic challenge for us in 2010. Thank 
you, Mr. Chairman.
    [The prepared statement of Ambassador Ischinger 
follows:]<greek-l>Wolfgang Ischinger deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Thank you, Ambassador. Ms. McNamara?

   STATEMENT OF MS. SALLY MCNAMARA, SENIOR POLICY ANALYST IN 
  EUROPEAN AFFAIRS, MARGARET THATCHER CENTER FOR FREEDOM, THE 
                      HERITAGE FOUNDATION

    Ms. McNamara. Mr. Chairman, Ranking Member Ros-Lehtinen, 
and distinguished members of the House Committee on Foreign 
Affairs. Since the end of the Second World War, the 
Transatlantic Alliance has been the backbone of American 
foreign policy. The post-war political, economic, security 
successes enjoyed by Western Europe and America and by the 
Euro-Atlantic community more broadly after 1990 are well known. 
How we got there is equally clear due in no small part to the 
resoluteness of NATO.
    Therefore, it is hard to believe that we are now talking 
about demolishing the very architecture which underpinned this 
extraordinary success story. Whether it is the European Union's 
ham-fisted attempts to duplicate NATO's roles and structures or 
Russian proposals for entirely new European security 
architecture, supplanting NATO with either will kill the goose 
that laid the golden egg of transatlantic security. The 
question of whether new threats require new approaches is a 
rehash of a 20-year-old debate: Is NATO relevant anymore? The 
answer is unequivocally yes.
    I was pleased to hear that the Cold War is over. I agree. 
NATO has focused on new threats and challenges, and we need 
only to look at Afghanistan for evidence of that. The alliance 
is currently active on three continents in missions ranging 
from counterinsurgency to counter piracy, and the reason NATO 
has seamlessly adapted to these new missions is because it was 
always an alliance of two things: A defense alliance and an 
alliance of values. Unless the transatlantic community has 
decided that neither security nor values matter any more, there 
can be no rationale for downgrading NATO.
    NATO is not a perfect alliance. It has its failings 
epitomized not least of all by the inequitable burden sharing 
among the allies in Afghanistan, but the perfect cannot be the 
enemy of the good. Reforming and revitalizing NATO is the 
answer to these new threats, not abolishing or undermining it. 
At the NATO summit in Lisbon at the end of this year, NATO will 
unveil its new strategic concept. As a truly strategic 
alliance, NATO must outline the threats it faces not only 
today, but tomorrow.
    Most importantly, it must put resources and political will 
behind addressing those threats, but above all, the United 
States must reinforce the primacy of NATO in Europe security 
architecture. Simply put, neither the European Union nor Russia 
is capable of supplanting America's leadership role on the 
continent in a stable, productive or healthy way. In terms of 
economic development, the European Union does have a role to 
play, especially in this area abroad, but in security terms, 
its efforts have been dreadful.
    Since the creation of a separate European defense identify 
in 1998, overall European defense spending, military 
capabilities and deplorable manpower have decreased. Since the 
introduction of the Lisbon Treaty designed to answer the 
infamous question who do I call when I want to speak to Europe, 
little has been realized in terms of the EU's capability to act 
as we saw so devastatingly in Haiti, and it is under the EU's 
leadership that Tehran now stands far closer to getting its 
hand on a nuclear weapon than it did when the EU began its 
carrots and flowers approach.
    In this respect, NATO must remain the cornerstone of 
Europe's security. In terms of redefining the NATO-EU 
relationship, the United States should adopt a few simple 
principles. NATO's primacy in Europe's security architecture is 
supreme. The EU should be a civilian compliment to NATO rather 
than a separate military identify, and NATO must reserve its 
resources exclusively for NATO missions. Another important 
element of revitalizing NATO is ensuring that the alliance's 
Article V guarantee is credible.
    However, Russia sees calls to strengthen Article V as a 
zero-sum game assuming anything that makes Article V stronger 
will make Russia weaker. In November, Moscow unveiled the text 
of its proposed legally binding European Security Treaty to 
organize European security arrangements. It is with some irony 
that this treaty was unveiled in the wake of Russia's 
simulation of a nuclear attack on a NATO member, Poland. 
Although the text of the treaty seems almost benign respecting 
members' territorial integrity establishing new processes for 
conflict prevention, we must sincerely doubt Russia's 
willingness to take them seriously.
    Moscow unilaterally withdraw from the Treaty on 
Conventional Armed Forces in Europe. It has not ratified the 
Energy Security Treaty. It redrew Europe's borders by force 
when it invaded Georgia in 2008, and it remains in permanent 
violation of the EU-brokered cease fire which it signed by 
unilaterally recognizing the break away regions of South 
Ossetia and Abkhazia. As long as Russia's foreign policy 
affirms a zone of privilege interest and identifies NATO and 
the United States as major threats to global security and 
Russian military interests, there is no reason to believe that 
a new treaty will make Russia a better partner than the 
existing architecture allows for.
    President Obama has shown a greater willingness than almost 
any other U.S. President to accommodate Russia under the rubric 
of resetting United States-Russian relations, but abolishing or 
undermining NATO as suggested by Russia will ultimately harm 
American security interests. I would like to conclude with a 
quote from President Obama:

        ``NATO stands as an example of how the United States 
        can advance American national security and the security 
        of the world through a strong alliance rooted in shared 
        responsibility and shared values. NATO remains a vital 
        asset in America's efforts to anchor democracy and 
        stability in Europe and defend our interests as well as 
        values all over the world.''

    Thank you very much.
    [The prepared statement of Ms. McNamara 
follows:]<greek-l>Sally McNamara deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Thank you, and finally, Mr. Trenin.

   STATEMENT OF MR. DMITRI TRENIN, DIRECTOR, CARNEGIE MOSCOW 
                             CENTER

    Mr. Trenin. Chairman Berman, Ranking Member Ros-Lehtinen, 
esteemed Members of Congress, it is a great privilege and a 
great honor for me to speak in this audience. The problem with 
European security as I see it, to put it in a nutshell, is that 
two decades after the end of the Cold War Russia and the new 
states that emerged from the former Soviet Union, including 
Ukraine and Georgia and others, find themselves outside of a 
meaningful security framework for that part of the world.
    The existing framework formed by the Atlantic Alliance and 
the European Union, the twin pillars of peace and security, has 
greatly expanded in the last decade. Yet, it has fallen 
critically short of the promise of a Europe whole and free. Mr. 
Chairman, you referred to the failure to prevent a war between 
Russia and Georgia. This illustrates the risks that exist in 
that part of the world.
    Even before the Georgian war, it should have been clear 
that safe limits for NATO's enlargement to the East had been 
achieved. After Georgia, it became obvious to all. Right now, 
the mood is certainly less somber than it was 18 or 20 months 
ago. Yet, the fundamental problem remains, and it is just 
beneath the surface. The roots of this problem, as I see them, 
are largely psychological.
    There is no longer an ideological divide across Europe, nor 
is there a military standoff, trade and travel thrive across 
borders, and yet there is a palpable obsession in Russia with 
America's intentions toward it and an equally strong obsession 
in many of the countries of central and Eastern Europe with 
Moscow's motives. To call this problem essentially 
psychological is not to dismiss it. Rather, it is to point to 
the depth and strength of the prevalent sentiments.
    The respective fears are, in my view, baseless, but they 
are not harmless. They misinform and misguide and allow for 
wide manipulation. The time to act is now as the United States-
Russia relationship is on the mend. As we know from experience, 
windows of opportunity do not stay open forever. The issue is 
how to go about squaring the circle of European security. In my 
view, no silver bullet can do it. The draft treaty proposed 
President Medvedev and referred to several times during this 
session, in my view, is too conservative to be realistic. Even 
though his proposed remedy is probably ineffective, his broad 
initiative can be constructive.
    Regarding Russia's fears, in my view, it is the United 
States that needs to take the lead. The Obama administration 
has exercised care, tact and patience, and it has taken a 
number of Russian concerns aboard. This however is just 
clearing the ground, not yet building upon it. Start is good, 
but alone it is not good enough. No amount of strategic arms 
reductions is capable of altering the nature of the United 
States-Russian strategic relationship, which is basically 
unchanged from the years of the Cold War.
    The confrontations' afterglow, ladies and gentlemen, shines 
on. If one looks for a game changer, which can replace that 
pattern, it is cooperation on missile defenses, in my view. The 
United States has already offered this to Russia, but the 
Russians are not jumping at the offer. They evidently don't 
want to be a mere add-on to the U.S. program. They aspire to a 
parity-based deal. They claim an equal right with the United 
States to discuss and define threats. This is a long list. No 
question that working on that issue is going to be difficult, 
and the positive outcome, a joint United States-European-
Russian missile defense system is not assured.
    If however such a system were to become a reality at some 
point, this would constitute a dramatic improvement, I would 
say a revolution for the better in European security. As the 
further enlargement of NATO to the east, its prospects really 
depend on the countries' concern. Should an overwhelming 
majority in Ukraine, including a solid majority in Crimea, 
support accession, no force in the world would be able to veto 
or exploit it. The current circumstances are different as 
reflected in the recent election.
    Georgia's situation is conditioned by the post-conflict 
realities on the ground. Admitting any country to the alliance 
should not lead to importing a real risk of military conflict 
with third parties. Above all, Americans, Europeans and 
Russians need to look to the future even as they draw lines 
unto the past. The security interests of the 21st century call 
for a common cause among them. This is evident, and this has 
also been evident in this discussion so far. Even now, on 
nuclear proliferation and climate change, energy, security, 
counterterrorism, cyberspace and the arctic. There is a lot 
that binds the three would-be partners together.
    Russia of course will not be able to deliver Iran, but it 
is a key partner in any effort to bring the Iranian nuclear 
program to a peaceful resolution. Moscow will not determine the 
outcome in Afghanistan, but it helps with U.S.-NATO transit 
there and is able to contribute to an eventual settlement in 
Afghanistan. Russia will not solve the world's energy needs, 
but it can be helpful from Europe to East Asia to the Arctic. 
In the end, one needs to ask oneself a question: What is the 
future that we want?
    If one wants a whole and peaceful Europe, one needs to 
build an inclusive security community, a community of countries 
that share security among themselves. Europe's general 
prosperity can be helped by common economic space. A freer 
Europe means the rule of law firmly established in all its 
countries including Russia, democracy through participation and 
adherence to international norms and commitments. It can be 
helped by visa-free travel and open exchanges. The future it 
shaped by the decisions taken today.
    As far as the obsession with Russia is concerned, I think 
that it is Russia's turn to lead just as it is the United 
States' turn to take on Russia's obsession. Moscow needs to 
treat its neighbors' concerns seriously. Russia has already 
recognized Poland as a key country in the region and a key to 
better relations with the European Union. This needs to be 
expanded and deepened. The Russians need to develop a habit of 
regular consultations with the Poles like they have already 
developed with the Germans, the French and some of the others.
    They need to open the archives much wider. They need to 
reach out to the Baltic States without provoking them 
unnecessarily with military exercises. To conclude, let me say 
that to motivate movement toward the desired future, we need a 
new narrative, not the divisive one of the Cold War days, which 
is still heard today sometimes, and not the rosy one of the 
immediate post-Cold War that hoped to do away with differences.
    The Americans in view of their global role need to think 
about broadening the community of responsible stakeholders, 
specifically to include Russia, the Europeans about finally 
reuniting their family, which remains incomplete and thus 
insecure. As for the Russians, they need to find after all 
their place and role in the world. Thank you very much.
    [The prepared statement of Mr. Trenin 
follows:]<greek-l>Dmitri Trenin deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Well, thank you, and thank all of you. 
Very interesting. I am going to yield myself 5 minutes. There 
are many issues to go off on, but I want to clarify two points 
that I am not sure I understand. Mr. Graham, you talk about 
creating a European pole within NATO. Could you just describe 
that a little more, and how does that relate to an EU security 
activity?
    Mr. Graham. Certainly. I think we are seeing a process 
where Europe is moving toward a unified security and defense 
policy. Obviously, with fits and starts, and it is not going to 
be linear, but that means that increasingly we are going to 
find that inside NATO we are not going to have a discussion 
between or among the United States and dozens of other European 
allies. We are increasingly going to have a discussion that is 
between the United States and EU positions as EU articulates a 
more common policy.
    That means that the way we have gone about managing our 
relationship with NATO is going to change. It will become much 
more an institution that is built around two pillars: The 
United States probably with Canada and a unified European 
Union. That will lead to certain changes in, as I said, how we 
manage the dialogue inside NATO, how we divide up the various 
security roles, the various positions within our military and 
security structures, and so on.
    What I am talking about basically is the recognition that 
as the process of European Union integration moves forward, we 
are going to find ourselves facing increasingly a unified 
Europe inside NATO. That is something that we should recognize. 
It is something that I think we should foster because I believe 
in the long run it is good for the United States, and it is 
good for the security of Europe and our ability to operate with 
Europe in challenges beyond the European continent.
    Chairman Berman. There are a lot of questions that come off 
of that, issues like EU countries that aren't in NATO, to what 
the British and French think in the context of their entire 
security arrangements about subordinating some of their 
security forces to a larger European pole.
    Mr. Graham. Absolutely, but here I think the process of 
both NATO enlargement and European Union enlargement will 
overlap. There is already a tremendous overlap in membership.
    Chairman Berman. Right.
    Mr. Graham. And I can foresee a time as Europe moves toward 
a more unified position on foreign and security policy that it 
becomes thinkable that countries like Sweden, Finland and 
Austria will themselves <greek-l>will  deg.become members of 
the NATO alliance, so again, this is not something that 
describes the situation now. It is a direction in which we are 
moving. I think it is a direction that the United States for 
our own interest ought to encourage. It shouldn't be something 
that we should resist.
    Chairman Berman. All right. Ms. McNamara, you talked about 
strengthening Article V commitments. Now, I thought I heard a 
very fascinating concept in terms of the ranking member's 
opening comments regarding Article V obligations and the 
participation of individual members of NATO and to what extent 
we are going to review Article V obligations differently based 
on how individual NATO members are meeting common threats and 
participating in that, but, Ms. McNamara, what do you mean by 
strengthening Article V?
    Ms. McNamara. Article V is the heart and soul of NATO.
    Chairman Berman. Yes.
    Ms. McNamara. If you don't have Article V, then you don't 
have NATO in my opinion.
    Chairman Berman. We do have Article V.
    Ms. McNamara. Yes. In terms of making it credible, it is no 
secret that Central and Eastern Europe have some nervousness at 
the moment about whether their security concerns are taken as 
seriously as Western Europe. In terms of what Article V means, 
and I think it will evolve in this strategic concept, but at 
the moment it means more military exercises, it means more 
investment, more officer exchanges. Those sorts of things are 
all valuable, they are all credible, but it is also a political 
thing, and I think politics really does play a part within 
NATO, and I think unless Central and Eastern Europe feels part 
of the conversation on an equal level.
    As long as they don't feel an equal partner in this 
conversation, then I think Article V cannot be credible. In 
terms of one of the worst things we can do for Article V, it is 
try and make NATO look like the European Union. I think that 
would be a disaster, and having an EU Corps within NATO I think 
goes to what Henry Kissinger said. He said if we have a 
European Corps, then America loses out in the conversations 
that matter the most because the conversation is brought to 
America that has already been concluded by the Europeans.
    Chairman Berman. Unfortunately, my own time has expired 
before I ever got to the questions I really wanted to ask, but 
thank you. The ranking member I yield 5 minutes.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. I wish 
to comment on assertions that Russia has been helpful with 
Iran. Russian entities for years have facilitated the 
advancement of Iran's missile and conventional weapons 
capability. Russia is poised to sell advanced missile defense 
systems to Iran. During the last Congress, we had to make 
changes to the Iran-North Korea-Syria Nonproliferation Act 
because a certification could not be met, that is that the 
President could not certify that Russian entities were not in 
fact continuing to provide equipment, materials, technology and 
other assistance to Iran's nuclear, chemical, biological and 
advanced-weapons programs.
    Russia, with China, has been one of the biggest obstacles 
to securing comprehensive crippling sanctions at the U.N. 
Security Council against the Iranian regime. Are these the 
actions that we deem to be helpful? Rhetorical assurances from 
the Russian leadership on Iran do not negate all of the other 
Russian policies that undermine European and global security 
and stability and in turn threaten U.S. security interests.
    Today, as I look at Russia's actions, I am reminded of what 
Winston Churchill called in the 1920s and 1930s as ``The 
Gathering Storm.'' We all know what happened when such warnings 
were ignored, and hopefully we will not repeat those mistakes 
today with Russia.
    Ms. McNamara, I wanted to ask you this question: Last 
September, President Obama decided, as we know, to abandon the 
established plans to deploy missile defense components in 
Poland and the Czech Republic which were aimed at countering 
potential long-range missile threats emanating from Iran.
    The previous plan had been unanimously endorsed by the NATO 
alliance at its summit in Bucharest in April 2008. Despite this 
decision, which was viewed by many as a step to appease Moscow, 
Russia is now complaining that Romania and Bulgaria have 
expressed a willingness to host missile defense components on 
their territory. Russia is also linking the issue of missile 
defense to the signing of the next START treaty. Could you 
please comment on Russia's strategy in regard to the issue of 
missile defense and its possible implications for the national 
security interests of the United States and our allies in 
Europe?
    Ms. McNamara. Thank you very much. The abandonment of the 
third site missile defense agreement came at a very, very 
unfortunate time. It came on the 70th anniversary of the 
Soviet's invasion of Poland. I think it was a little tone-deaf 
to come out on this day. There is no doubt that the Czech 
Republic felt as if a dirty deal had been done, as if they had 
been traded away for the prospect of a future START agreement 
with Russia, and we still haven't actually got that agreement.
    For Russia, there is no doubt their objections to a third 
site were not because it was worried about its strategic 
security interests. They knew very well that the third site 
couldn't harm them in any way. What it was about was what their 
stated policy is; the zone of privileged interest. They view 
they have a sphere of influence. I mean, you would have to be 
in a coma to think that it is surprising now that they are 
objecting to Romania or Bulgaria or any other Central or 
Eastern European or former satellite republic being involved in 
the phase adaptive approach.
    I think when I talk about things on a political level, this 
is entirely political. I don't think Russia's objections were 
at all security-based. I think they were political.
    Ms. Ros-Lehtinen. Thank you, and I just have a little time. 
I wanted to ask the panelists if France and Russia are 
currently negotiating a sale of one or more of France's Mistral 
amphibious assault warships to Russia as well as a license for 
Russia to produce additional such vessels in its own 
shipbuilding facilities. If this contract is finalized, it 
would be the first time that a member of NATO has sold to 
Russia such a major weapons system. What message would this 
sale send to our allies, namely in the Baltic States? To 
anyone.
    Ms. McNamara. I think it would be an absolute disaster. I 
think in the words of a Russian general it will take us 40 
minutes to do in Georgia what previously took us 22 hours to 
do, and those 22 hours were very, very valuable because that is 
what got the conflict on the front page of the international 
media and finally got Russia to back off, so I think the sale 
of this goes against everything that NATO is about, and it also 
goes against what the EU about. The EU has a code of conduct 
for arms sales, and one of the features of that is that you are 
not meant to jeopardize regional stability, and this would 
increase instability.
    Ms. Ros-Lehtinen. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman Berman. The time of the ranking member has 
expired. The gentleman from Massachusetts. It is the intention 
of the chair depending on the time we finish the first round to 
have a second round and get reactions to many of these issues. 
Mr. Delahunt?
    Mr. Delahunt. Yes. I would just like to note my 
disagreement with the conclusion that has been articulated 
about Russia invading Georgia when the EU itself, its envoy, 
concluded otherwise. I think it is important to state that for 
the record because it keeps getting repeated, and it takes on a 
certain validity and legitimacy that it doesn't deserve, but I 
don't want to focus anymore on that. I want to go to Mr. 
Trenin's concept of obsession and a certain psychology here.
    You, Mr. Trenin, talk about missile defense as being an 
opportunity to be a game changer in terms of the psychology 
that you refer to and presumably the obsession. What were, and 
I will ask the Ambassador to comment on this, the obsession 
that Russia has in terms of its national security, and I think 
we have to empathetic here. Whether it is real or not, it does 
create a fear that there is an encroachment that could threaten 
the national security interests of Russia.
    How did this obsession evolve, and why is missile defense a 
potential game changer in terms of the psychology that 
currently exists, Mr. Trenin and Ambassador Ischinger? You 
don't have to pay any attention to him. That is you, Mr. 
Chairman.
    Mr. Trenin. Mr. Delahunt, thank you for your question. I 
think if you are certainly in Moscow, a lot of people at least 
would feel you are being surrounded by the United States, that 
you have very little power and the alliances to which you do 
not belong and which harken back to the days of the Cold War 
keep expanding. I do not share that view, but I understand the 
sentiments of those who are responsible for Russia's strategic 
assessment and Russia's foreign and security policy.
    The one important paragraph in the Russian national 
security strategy says that the biggest military threat 
potentially to the Russian Federation is the United States 
acquiring through building missile defenses a first-strike 
capability against Russia. To me this is a fantasy that has 
little relevance to today's world. Now, this is an official 
statement, and this statement underlies Russian strategic 
thinking and Russia's defense policy.
    Now, if you build a missile defense system which is 
operated jointly by the United States, Russia and Europe, then 
this can no longer be advanced, this can no longer be 
supported, this should be out of the Russian military doctrine 
and out of the Russian national security strategy.
    Mr. Delahunt. Mr. Chairman, I only have 1 minute left, and 
I want to ask the Ambassador to comment.
    Ambassador Ischinger. Thank you very much. First of all, I 
do not disagree in any way with what was just said by Mr. 
Trenin. I would just like to point out that in the original 
concept more than a decade ago when we created the NATO-Russia 
Council as a counterweight to the idea of NATO enlargement, a 
balancing act, the idea was that this would be underpinned or 
supplemented by shared projects in many different areas which 
were listed at the time.
    Not much has been achieved in terms of doing things 
together, certainly not in any sphere that is relevant to 
military concerns and worries, which is why I believe that Mr. 
Trenin is correct in pointing out that a shared effort in the 
ballistic missile defense area could be a game changer. It 
would actually force people to abandon the classic zero-sum 
thinking and move into win-win types of thinking, which is 
where we should be moving. Thank you.
    Chairman Berman. The time of the gentleman has expired. The 
gentleman from California, Mr. Rohrabacher, is recognized for 5 
minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. Let me 
join Mr. Delahunt in setting the record straight. A Russian 
military retaliation against a Georgian breaking of a long-term 
truce by sending their military into Ossetia and Abkhazia would 
be no different in my mind than a United States military action 
against Serbia if it launched its troops into Kosovo. We 
shouldn't have a double standard here. The double standard is 
very clear.
    We demand Russia accept that Kosovo is independent, but no, 
when it comes to people who don't want to be part of Georgia, 
now we insist that they be forced to remain part of Georgia and 
that Georgia has a right to use military force. It is 
ridiculous. If we are going to have to be friends with Russia, 
they have to know that we have a single standard for them and 
for us. That standard should be truth, truth, and we haven't 
heard that when it comes to Georgia as my friend says, a 
repeated distortion of what happened there.
    Let me note I went to the Reagan Library this weekend with 
my children. Excuse me, not the library, the ranch, up there at 
Ronald Reagan's ranch, and I was ushered up there because of 
course I was a former speech writer for the President, and I 
have been up to the ranch during the days when Reagan was 
there, and there was a picture that I saw prominently displayed 
at the ranch, and it was a picture of President Reagan and 
Gorbachev and their families who were there. Reagan brought the 
Gorbachevs up, and let me note that is after a lifetime of 
being anti-Soviet on Ronald Reagan's part.
    He invited Gorbachev up, and there was Gorbachev and 
Reagan, and Reagan had given Gorbachev a cowboy hat, and if you 
look real close at the picture, Gorbachev had the cowboy hat on 
backwards. Let us note that it was an obsession about the Cold 
War that seems to still be preventing us from moving forward 
with the type of relations that we need to have with Russia on 
our part and on the Russian's part as we have heard today. 
Missile defense, what Ronald Reagan championed and which I 
wrote numerous speeches with him on and worked with him on 
those speeches was very clear.
    Ronald Reagan thought of missile defense as a way to end 
the Cold War and as potentially a method of cooperating with 
our former enemies. He made that very clear, and the fact that 
we put a missile defense system in place that was clearly aimed 
at Russia was a total rejection of what Reagan's vision missile 
defense was, and I would agree with the witnesses, Mr. 
Chairman, when they say that missile defense----
    Chairman Berman. Some of the witnesses.
    Mr. Rohrabacher. Some of the witnesses when they say that 
missile defense is something that could be used as a vehicle to 
overcome this obsession on both sides, in Moscow and in 
Washington, and also let me add Ronald Reagan did not want to 
have huge mountains of nuclear weapons, and if we have a 
missile defense system coupled with a logical and rational 
reduction of nuclear weapons so that we don't have to waste 
money, limited defense dollars on weapons that will never be 
used, I think that would go a long way toward making this a 
more peaceful world, and I would hope that our administration 
follows that course. I have 1 minute for anyone who disagreed 
on the panel or disagreed with what I had to say.
    Chairman Berman. Go right ahead.
    Ms. McNamara. I don't want to disagree. I just want to say 
missile defense, one of the original architects of the concept 
of missile defense was actually Winston Churchill when the V-2 
rockets were raining down on London, and for him then I think 
missile defense is very much what the motivating factor should 
be today. It should be a protect and defend strategy, and if 
Russia wants to be part of that, then okay, but we look at the 
third site, there is this I think unfair bias that the third 
site was directed against Russia. It was absolutely nothing of 
the sort, and Russia knew that, and there was also deep 
verification measures within the third site so that Russia 
could absolutely be 110 percent sure that third site wasn't a 
threat against them.
    Mr. Rohrabacher. Well, we did not plan that missile defense 
system with cooperation with Russia, and if they ended up with 
some sort of missile defense system on our border, we would 
probably feel a little bit upset about it as well, as well as 
of course creating a military alliance that went right up to 
our border. If we have a chance for future peace, we have to be 
a partner with Russia against China and radical Islam, or we 
lose.
    Chairman Berman. The time of the gentleman has expired. I 
assume there was no picture at the ranch of President Reagan 
and Prime Minister Thatcher, but----
    Mr. Rohrabacher. Yes, there was. In fact, there was a 
picture of the Prime Minister.
    Chairman Berman. Thank you for clarifying that.
    Mr. Rohrabacher. She wasn't wearing a cowboy hat, however.
    Chairman Berman. The gentleman from Georgia, Mr. Scott, is 
recognized for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman. I would like to get 
your reaction to something. As I mentioned earlier, I am a 
member of the NATO Parliamentary Assembly, and I am one of the 
General Rapporteurs there, and as such, I have been asked to do 
a paper and lead a discussion on Russia, the NATO, this new 
strategic alliance, and in that discussion, in that paper, 
which we will do this coming May in I think either Belarus or 
Latvia, I will make that recommendation that we offer 
membership to Russia in NATO for some of the very pressing 
reasons that we mention on this committee.
    It seems very illogical for us to move with a new strategic 
concept for NATO given this new opportunity, this new window 
when every basic issue, energy security, cyberspace, the high 
north, the climate change, missile defense, all of these. 
Russia, the largest country in the north Atlantic should be at 
that table. In that regard, I would like to take benefit of 
your joint expertise to share with us what the response you 
feel will be, what some of the challenges and problems might be 
and the reaction from the membership from your perspective if 
you could. Maybe I will start with you, Ambassador, and 
certainly Ms. McNamara on extending membership to Russia in 
NATO.
    Ambassador Ischinger. Thank you. Thank you very much. 
First, let me say, as I said in my opening statement, I believe 
this is an important point whose time has come, but we need to 
make it clear that all we can do is explain that there is a 
door that is open. Russia will have to walk through that door 
and would need to accept the conditionalities and the 
principles that govern our Transatlantic Alliance. In other 
words, this is not an invitation without a certain number of 
clearly established conditions.
    In principle, I certainly share the view that this is a 
point that should be made in the context of the future 
strategic concept because there is in my view no better way 
than to express our continued commitment to this fundamental 
idea of Europe whole, free and united provided that Russia can 
meet the conditions. Thank you.
    Ms. McNamara. Russia does not want to and will never want 
to join NATO. They have stated on several occasions that they 
thought NATO should be abolished when the Warsaw Pact was 
abolished, so I like the idea that we have this hand of 
friendship out to them, but I think Mr. Ambassador is right. 
The North Atlantic Treaty itself says any European country or 
North American country that abides by the rules of NATO, the 
door is open to them.
    We have a permanent open-door policy, so I don't think the 
problem is opening the door. The problem is Russia doesn't want 
to walk through it, and if you look at the things that we hold 
dear, not using energy as a weapon, not resolving your 
conflicts by military means, territorial integrity, not using 
cyber attacks, respecting human rights, on all of these things 
Russia is failing at the moment, and so they don't qualify to 
get in, so I think we don't need to say Russia needs to get 
into NATO. All we need to do is reaffirm the North Atlantic 
Treaty, which I think is one of the best written treaties in 
the world.
    We stand behind the fact that NATO has an open-door policy, 
but it is my expert testimony that Russia has no intentions of 
walking through the door.
    Mr. Graham. While I agree sort of long term that what we 
want to see is Russia part of NATO, I think the offer at this 
point actually will focus the discussion more on what the 
conditions are for getting in becomes an ideological debate of 
some sort that actually detracts attention away from what we 
ought to be doing at this point, and that is looking at areas 
of concrete cooperation between NATO and Russia. We have talked 
about some already, but I think the concrete cooperation is the 
key.
    That is what builds the trust. That creates the habits of 
cooperation that makes thinkable over the longer term NATO 
transforming itself into a Pan-European security organization, 
but I do think if you make the offer to Russia now, you will 
find yourself side-tracked in a discussion of what that really 
means, which I think is a waste of valuable time.
    Chairman Berman. The time of the gentleman has expired. I 
am going to recognize the gentleman from New Jersey. I yield 5 
minutes. We have a vote going on. We will have to take a short 
recess to make those votes.
    Mr. Smith. Mr. Chairman, thank you very much, and let me 
thank our panel for their great and incisive insights today. 
Mr. Graham, you spoke of the unified defense policy for the EU, 
and I am wondering if you might speak to the issue of lessons 
learned from the Balkan War. I, like many colleagues, made trip 
after trip. I was actually in Vukovar immediately prior to its 
fall, and I remember during the Bush administration, and it 
carried right into the Clinton administration, there was always 
talk about let Europe handle it.
    Right where you sit, and I chaired the hearing, and we had 
the translator when Mladic and the Dutch peacekeepers sold out 
Srebrenica, killing over 8,000 people in a matter of just a few 
days, and I am hoping that lessons learned from that are being 
very judiciously applied. I would ask you to speak to that. In 
follow up to the question about whether or not Russia should be 
invited into NATO, what do you consider the risks to be with 
regards to China? The border between China and Russia obviously 
is thousands of miles long.
    The population density on the Chinese side vis-a-vis the 
Russian side is something in the order of 250:1 in many places. 
There is occasionally a fire fight of incursion that occurs, 
and even though they may have mutual agreements right now, 
there are potential cinder blocks or sparks that could ignite 
into a war. That would then bring NATO and by extension 
obviously the United States into a war with China. Is that a 
concern? If you could speak to that very quickly.
    Finally, I have co-chaired or chaired the OSCE Helsinki 
Commission here. I have been on the commission since 1983 and 
strongly oppose the Kazakhs getting the chair and office at the 
OSCE because of their human rights beliefs, which are not good. 
The Kazakh government has sought to de-emphasize human rights 
because of security and their closeness to Russia. Is that a 
concern that you might share--as to whether or not they change 
by taking the Russian view of the OSCE and its many principles 
in trying to change it? We have had a major fight with Russia 
trying to undermine what was the consensus for years. Mr. 
Graham?
    Mr. Graham. Yes, very briefly on Balkans. Obviously, in the 
1990s the Europeans didn't cover themselves with glory in those 
series of events, and the United States did play an important 
role in putting together the final settlements. The point is 
that we need this to change over time, so we need to engage in 
a serious discussion with our European partners on the roles 
and responsibilities that Europe will assume inside Europe for 
European security and stability. I think they have learned the 
lessons as well, so that is a discussion we need to have.
    On Russian and NATO with regard to China, that is another 
reason why I don't believe that we should make the offer 
explicit at this point because it does raise that issue, but 
through, as I said, a process of concrete cooperation with the 
Russians, I think you put that issue to the side. We will also 
need to obviously engage with conversations with the Chinese 
going forward as to what greater cooperation between Russia and 
NATO might mean for China's relationship both with Russia and 
NATO and the United States.
    Mr. Smith. Mr. Trenin?
    Mr. Trenin. In my view, it is a great idea whose time is 
passed. It could have been had in the early 1990s. It could 
have been had in the early 2000s. Right now and for the 
foreseeable future, Russia will not give up its strategic 
independence. NATO can only live with so much divergence and so 
much diversity in its ranks, and clearly no one wants China as 
it would be adversary. As to Russia-China relations, it is the 
best relationship that Russia has had with China in many, many 
years, but it is a very different relationship.
    For the first time since the two countries have known each 
other, Russia sees China as a stronger party, and Putin sees 
his best, most important achievement as President fixing every 
inch of the China-Russian border, and that speaks volumes about 
their friendly relationship. It is friendly, but it is very, 
very important that it is very serious.
    Ms. McNamara. Talking about the Balkans War, the EU has 
learned absolutely nothing. If you remember, when we started 
the unfortunate conflict, I am sure you remember this line: 
This is the hour of Europe. The follow up line to that was: 
This is not the hour of the Americans. For the EU, this was 
about their aggrandizement, not about the safety and security 
of the people of the Balkans. In terms of what they have 
learned, they said we need the Maastricht Treaty and then we 
will be able to do more. We need Amsterdam. Then, we need 
Lisbon. None of these things have done anything.
    Chairman Berman. Ambassador Ischinger, I am going to just 
give you an additional 30 seconds here to get your reactions.
    Ambassador Ischinger. Thank you. Well, just two very brief 
points. First of all, I think that the EU has been on an 
important learning curve because of the events in the 1990s. I 
believe that mainstream Europe continues to believe that 
America should continue to consider itself and to be a European 
power. Even as we grow, we don't want the United States to 
consider its own role in Europe to be terminated, not so.
    On the Kazakhstan issue, on the Kazakhs question because 
that has not been referred to, let me just say that I don't 
think too many people were happy with this development for the 
very reasons that you outlined yourself. However, my own 
personal impression has been that surprisingly or maybe not so 
surprisingly the leadership in Kazakhstan has gone out of their 
way to play a useful and relevant chairmanship role in the 
OSCE. In other words, I think the actual conduct has not 
justified the concerns that we had as we went into this.
    Mr. Smith. Thank you.
    Chairman Berman. The time of the gentleman has expired. The 
committee will recess for about 15 minutes as we take our 
votes, and then we will be back to at least give me a chance to 
ask the question I wanted to ask.
    [Recess.]
    Chairman Berman. This is my ideal time because I am the 
only one here I have to recognize. I recognize myself for 
another round while we wait for some of my colleagues to get 
back from the votes. We have a process here sometimes where the 
staff suggests questions, and one of the questions they 
suggested to me was one that says that a lot of us in the West 
believe--we see it in the context of Iran, we see it in the 
context of our mission in Afghanistan, counterterrorism--that 
Russia is an important actor on these kinds of threats that we 
have all alluded to in this hearing on proliferation issues.
    We also see it as a difficult partner, and is that view of 
Russia as a ``difficult partner,'' is that a difference caused 
by the issue of core values? Is it caused by a different 
perception of the threats facing us? I guess I would add to the 
question--or is it what Mr. Trenin talked about--to the extent 
that there is a Russian obsession that--I forget his terms--it 
was not well placed, but it was not a harmless obsession with 
U.S. intention that therefore clouds perceptions and maybe 
comes across as separate from core values.
    What is the cause of the difficulties of the incredible 
amount of work that seems to have to be done to sometimes get a 
true partnership on these major threats. Any of you? 
Ambassador, did you want to start?
    Ambassador Ischinger. Thank you, Mr. Chairman, I will be 
happy to start. I just offer one or two observations. I believe 
it is correct to find in many areas Russian behavior as that of 
a difficult partner, certainly not an easy partner. Russia has 
not been known to say yes and amen to each and every proposal 
that we have made. I do not share the view that the reasons for 
this lie primarily in different perceptions on values. I 
believe that the fundamental reason why Russia has been a 
difficult partner is that Russia tends to define its interests 
in a very straightforward manner.
    Russian interests are Russian interests, and the additional 
problem has been, and I believe I alluded to this earlier, is 
that there has been a tendency to believe that whatever is good 
for NATO or for that matter the United States, cannot possibly 
be good for Russia, this is thinking in zero-sum terms. I 
believe we would see Russia to be a less difficult partner if 
we managed to create more mutual trust, and if we manage to 
create in the way that Russia deals with us and we deal with 
Russia more of a thinking in win-win terms.
    Russia knows that it is not in Russia's interest for Iran 
to be a military nuclear power, but I am certain that there are 
a number of strategists in Moscow who are not interested in 
giving on the silver platter so to speak a dramatic 
international political victory to the United States so long as 
more fundamental issues between the United States and Russia 
have not been resolved, so I believe this zero-sum thinking is 
one of the reasons, which has made it more difficult than it 
should be to reach common positions. Thank you.
    Chairman Berman. Well, unfortunately, my time has expired. 
I may be able to get back to this. Although, I just want to 
point out the ranking member raised this specific issue of Iran 
and Russia, and in a sense you are giving your thoughts about 
why that is so. The only person here who has not yet had a 
chance to question is the gentleman from Tennessee, Mr. Tanner, 
so he is recognized for 5 minutes.
    Mr. Tanner. Thank you, Mr. Chairman. I appreciate your 
patience. Voting is a necessary inconvenience around here 
unfortunately, but thank you for your patience. I just have I 
guess one question, two parts. The stumbling block to many with 
respect to moving ahead with a United States-NATO-Russia 
relationship is the situation in Georgia. I have a slightly 
different version of events than have been expressed here. 
Well, not slightly, but a different version.
    Regardless of that, it appears to many that the situation 
in Abkhazia and South Ossetia or the Russian behavior there is 
in violation of the Sarkozy agreement, and until we get that 
resolved, it is sort of difficult to move in the direction I 
think we all want to see us go. If that is the stumbling block 
that many that share my opinion believe it to be, how and what 
is the best form in your opinion to address this, NATO, U.N., 
OSCE, EU, a combination of all of the above? I guess to all of 
you or to those who wish to respond, how do we move this ball 
down the field? Yes, sir.
    Mr. Trenin. Mr. Tanner, I think that before we finally 
resolve the issue, which I think will take a long time, and it 
is not clear to me how the issue will be resolved. What is 
clear to me as I look into the future is that Georgia will 
probably not be restored in the border in which the 
international community recognizes it, but that is for the 
future. I think we need to make sure that there is no war 
again. I think we need to make sure there is no fighting, there 
are no shootings on the border, and I think that it is no 
accident as people say that in the past 15 months the situation 
in Georgia and around Georgia has been relatively calm.
    There hasn't been a single major incident, and this is not 
an accident. People worked on that, and I think the Russians 
recognize the commitment of this administration in Washington 
to transparency in their relations with Georgia and the fact of 
that relationship on Russia. I think there are fewer Russian 
fears than there used to be, and I think this is all for the 
good, and let me say just one thing. The very idea of Russia 
recognizing Abkhazia and South Ossetia was predicated on the 
fear of a war of revenge wages by Georgia and fully supported 
by the United States of America.
    They only recognize that in order to deter what they 
thought was another, but more serious, attack on them supported 
by the United States. Otherwise, it was foolish for the 
Russians to recognize Abkhazia and South Ossetia, just tied 
their hands, but that is a product of fears and misjudgment but 
based on a high-degree of mistrust between Moscow and 
Washington in the times of the previous administration.
    Ms. McNamara. Really, the only thing I think I agree with 
Mr. Trenin on is that I think we are going to go through a 
very, very long time before this dispute gets solved. Where I 
depart from him, whether you think Georgia was to blame or not, 
and I have serious reservations about the EU's report, I think 
the EU report should be renamed blame the victim. That is the 
only credibility that report had. The disproportionate use of 
force by Russia and their unilateral recognition thereafter was 
hugely provocative, and they have also militarized the region 
heavily, 10,000 Russian troops, five bases. This is not really 
the actions of someone who wants to resolve this peacefully 
going forward.
    However, I think we are sending mixed messages. On the one 
hand, we are saying Georgia is an ally, they are going to get 
into NATO someday, but on the other hand, the Americans won't 
even entertain upgrading Georgia military equipment to help 
them in Afghanistan, and of course Georgia was one of the first 
countries to respond when President Obama outlined his new 
counter-insurgency strategy for Afghanistan. I think the 
Americans need to make it very clear that Georgia is an ally of 
the United States, and I think there needs to be a little bit 
more energy on the part of the United States. In terms----
    Chairman Berman. I am sorry. The time of the gentleman has 
expired. That is the problem with 5 minutes. It goes by fast. 
The gentleman from California, Mr. Costa, is recognized for 5 
minutes.
    Mr. Costa. Thank you very much, Mr. Chairman. A couple of 
different questions that are related to one another with 
regards to this discussion we have been having this morning 
with Russia. The Kremlin has been described both during the 
Soviet era and now today as a bit of a puzzle palace to say the 
least, and I am still trying to get a better understanding as 
to the decision-making process as they transition with a new 
President. Clearly, it seems to be that the Prime Minister is 
still involved to a high degree in the different factions that 
are taking place.
    How would the four of you describe the decision-making 
process taking place today within the Kremlin as it relates to 
these very foreign affairs issues that we are talking about? 
Multiple factions? Different camps? Different schools of 
thoughts? Who wants to start? Yes, Mr. Trenin.
    Mr. Trenin. Well, thank you, sir. I believe on the 
important issues dealing with foreign and security policy there 
is a shared responsibility by the President and the Prime 
Minister, but clearly the Prime Minister is the leading actor 
in this duo, and on all important foreign policy issues, he 
weighs in very heavily, so it is Mr. Putin, but as far as the 
execution of foreign policy is concerned, Medvedev is the man 
who fully assumes the presidential duties, so you have an 
interesting and strange, almost unheard of situation in Russia 
in which you have dual leadership, but there is leadership 
within that dual leadership, and it clearly belongs to the 
Prime Minister.
    Mr. Costa. Do you see it continuing to change?
    Mr. Trenin. Well, I see Mr. Putin being almost as 
influential today as when he was president of the Russian 
Federation.
    Mr. Costa. Ms. McNamara, do you agree?
    Ms. McNamara. I absolutely agree. I think the decision 
making is opaque, but it is transparent from the point of view 
that we all know that Putin is in charge, and I don't think he 
is going anywhere. This is deeply undemocratic. I think going 
to this broader question of decision making and where they are 
going, Russia is not the enemy, that they are a strategic 
competitor, and I think going to the heart of the relationship 
is the fact that United States and Russian interest core values 
and threat perception fundamentally differ, and I think until 
we realize that, we are not going to get a partnership going 
forward that we want.
    Mr. Costa. Ambassador?
    Ambassador Ischinger. I have nothing to add.
    Mr. Costa. Okay.
    Ambassador Ischinger. Except to the very last point if I 
may? I believe that strategically there is a convergence of 
interest between the West and Russia. There are very few 
central challenges that I can think of that we can solve and 
address without Russia in a meaningful way, and there are very 
few issues that Russia can resolve without cooperation with the 
West. That is the challenge that we should focus on and explore 
as best we can.
    Mr. Costa. Mr. Graham?
    Mr. Graham. Yes, I agree with what is said about Mr. 
Medvedev and Mr. Putin, but I would add a further point that we 
tend not to focus on. Much depends on what type of information 
the top decision makers are getting, both Medvedev and Putin, 
and obviously there are a number of different sources, a number 
of different factions, if you will, within the Russian 
Government, within their military, security services, foreign 
policy organizations that pass information forward that provide 
the basis for decision making, whether it be Putin or Medvedev.
    What we have found is that much of the information that is 
passed forward from our perspective actually distorts what our 
policies are, what our intentions are and what we are actually 
doing in the world, and this is another argument for much more 
intense engagement with the Russians using the channels that we 
have, creating channels that provide us as much direct access 
to the senior leaders and also those that pass up the 
information.
    Mr. Costa. Don't you think that is internally within Russia 
deliberately done by many?
    Mr. Graham. Well, look, I mean, there are numbers of 
opponents to better relations between Russian and the West 
within the Russian bureaucracy.
    Mr. Costa. Okay.
    Mr. Graham. But there are also a number of people that 
would be prefer to have better relations, and we need to 
understand that is a reality, we need to deal with it, but I 
think it is incumbent upon us to pass as much information 
forward on our positions as possible.
    Mr. Costa. Thank you. My time has expired.
    Chairman Berman. Time of the gentleman has expired. I yield 
to the ranking member 5 minutes.
    Ms. Ros-Lehtinen. Thank you so much for the time, Mr. 
Chairman. As you know, I have a resolution, House Resolution 
982, calling on France not to proceed with such ship sales to 
Russia, which I have referred to in my previous questions. This 
issue is of tremendous importance to our allies in the Baltic 
States, and our friends in Georgia, and I would ask that you 
give your full consideration, Mr. Chairman, to consider House 
Resolution 982 at the next committee markup. It is no 
commitment your considering it.
    Chairman Berman. I got distracted. Remind me of what H. 
Res. 982 is? I am bad with numbers.
    Ms. Ros-Lehtinen. It is the measure dealing with the French 
sale of ships to Russia that I had referred to in my previous 
set of questions.
    Chairman Berman. Yes, you did.
    Ms. Ros-Lehtinen. Thank you so much. I also would like to 
ask unanimous consent if I could to insert into the record at 
this point the text of a bipartisan letter that I and 70 other 
Members of Congress sent to President Obama last December, 
asking that he focus on the important issue of the murders of 
Russian reporters, activists and lawyers in his discussion with 
the Russian leadership.
    Chairman Berman. Without objection, it will be included in 
the record.
    [The information referred to follows:]<greek-l>Ros-Lehtinen 
FTR deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Ros-Lehtinen. Thank you. And to the panelists: 
Regarding the arms sales to Georgia--do you think that the 
United States or other NATO allies should sell strictly 
defensive weapons to Georgia to help that country deter another 
potential attack on its territory by Russia? I know that we 
have differing views on the earlier attack. Do you think that 
the United States and other NATO allies should sell strictly 
defensive weapons to Georgia to help that country deter another 
potential attack?
    Ms. McNamara. Well, I think arms sales should be based on 
general principles. America decides to sell arms to certain 
countries and have different trade treaties with different 
countries depending on how trustworthy they are, how much 
technology they want to transfer, et cetera, et cetera. If we 
have decided that Georgia is an ally, then I don't see why not. 
However, one of the things you do have to consider in any arms 
sale is regional stability.
    If we think Georgia is an ally and can contribute to 
regional stability, then okay, but I think you have to look at 
it on a case-by-case basis, but I see absolutely no objection 
to selling them defensive weapons, and we mustn't forget as 
well that NATO has stated on the record that they do view 
Georgia as a future member of the alliance. We have the NATO-
Georgia Commission. They are a special ally if you want to put 
it that way.
    They don't have the membership action plan, but they are a 
special ally, and we have designated them 1 day to be a full 
member, so I find it pretty objectionable that we are thinking 
about selling an assault ship to Russia, but we won't give 
defense weapons to Georgia. I find it quite unconscionable on 
some level.
    Ms. Ros-Lehtinen. Amen. Thank you, Mr. Chairman. I would 
yield to you.
    Chairman Berman. Any other panelists want to answer?
    Ms. Ros-Lehtinen. Yes, Mr. Chairman.
    Mr. Trenin. Thank you. I think one needs to consider that 
from the standpoint of Georgia, Russia occupies the territories 
in Abkhazia and South Ossetia, and from the standpoint of 
Georgia, the most important duty of the Georgian Government is 
to restore the territorial integrity of the Georgian state. As 
people sell arms to Georgia, they need to consider that those 
arms may be used in the ways that a sovereign government in 
Georgia would decide to use them, and that I think is a major 
concern that should be weighing on people's minds.
    Ms. McNamara. I think if Georgia uses defensive weapons to 
defend itself, then that is a good thing.
    Ms. Ros-Lehtinen. Thank you so much. Yes, sir? Mr. Graham?
    Mr. Graham. Yes, just briefly on this. I mean, you always 
have to be concerned about the consequences. I would pick up on 
what Dmitri Trenin says. If you are going to make the sale, you 
have to have to have some sort of sense of what the Georgian 
Government is going to do with them, and no matter what we may 
think about what the Russians have done or may do, the fact of 
the matter is that as in August 2008, the United States is not 
prepared to do anything militarily, and if you get involved in 
another shooting conflict, it will redound to our disadvantage.
    Ambassador Ischinger. Just one sentence. Thank you. If, as 
I believe, our key job is to try to build trust and the working 
relationship with Russia, I would advise restraint, and I would 
support the considerations offered by Dmitri and by Tom. Thank 
you.
    Ms. Ros-Lehtinen. Thank you, very much, to all of you. 
Thank you, Mr. Chairman. If you will excuse me, I have to 
attend another event.
    Chairman Berman. I understand. Thank you very much. All 
right. Yes. We are now on second rounds. Okay. Mr. Scott is 
recognized for 5 minutes.
    Mr. Scott. Thank you. Ambassador, in your remarks, you 
mentioned that we need to rethink what security means in terms 
of our dealings with Russia, and I think you used the words it 
needs to be rethought from a standpoint of from each other to 
with each other, and you see, that is sort of where I think we 
have got to be useful going forward, find those areas that we 
can work together on, Russia, the United States and NATO. I 
think that has to be the arrangement.
    I don't think it should be Russia and the United States 
without incorporating the role of NATO. I think that NATO to do 
anything other than that rushes itself off the cliff of 
irrelevancy. How can you rethink a new strategic concept for 
NATO, and you are leaving Russia on the sidelines when it is 
Russia plays such a critical role in every major feature and 
concern? The whole issue of energy, their use of energy as a 
political weapon, how can that be dealt with with Russia in 
isolation?
    The fear within the European countries themselves are 
divided of that. It just seems to me that common sense says we 
have got to find a way to rethink and reinvent this. I am 
reminded of the advice that Frank Sinatra gave the answer to 
the question that asked Frank Sinatra why have you been on top, 
the '30s, the '40s, the '50s, the '60s, even into the '80s up 
to the time near his death he was packing them in in Madison 
Square Garden, and when the question was put to Frank Sinatra 
why have you lasted, Frank Sinatra simply said because I have 
constantly reinvented myself, and so how do we move forward 
with this in getting a way to do this.
    Pointedly, I want to ask you a question about that, but 
really where are the problem areas within Russia? What is the 
thinking on one side or the other and what is that reasoning? 
Where is the resistance within the European block at we need to 
work with? Why not identify these problem areas to a greater 
cooperation and try to defeat these, and most of them from my 
experience in dealing with this issue is simply fear, and 
leadership requires that you have the boldness to lead, and 
that succumbs the fear. Where do we start with this, and where 
are the problem areas that are preventing us from this 
corporation?
    Ambassador Ischinger. You raise a key issue, and I am sure 
the other panelists have their own views. My view would be that 
one of the areas that we should focus on are those areas where 
mistrust is greatest, and for a number of reasons, mistrust 
appears to be significantly greater on the military side than 
in some other areas. This is why I believe that measures which 
would create an atmosphere and a culture of cooperation of 
shared objectives would be helpful. That can be done, for 
example, in the very large area of arms control where I am 
pleased to see that the United States has taken initiatives and 
is working hard to move forward, but that is an area that is 
larger than just the START follow-on treaty.
    I happen to believe that one of the biggest challenges for 
the West, one of the biggest global challenges is the 
prevention of further nuclear proliferation. If we wish to 
strengthen the global nonproliferation regime, we need, if we 
can, to have Russia on our side as a partner in an effort to 
strengthen the treaty, to make the up coming review conference 
a success and not a dismal failure like the one that we had 5 
years ago, et cetera, et cetera, so military and arms control 
and proliferation would be my issue number one. Others are not 
unimportant, but would have to be in the back seat.
    Chairman Berman. The time of the gentleman is expired. The 
gentleman from California, Mr. Rohrabacher, is recognized for 5 
minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. Again, 
I would suggest that the misrepresentation of Russia's military 
retaliation against Georgia's invasion of Ossetia and Abkhazia 
has not done the cause of world peace or the cause of more 
cooperation between our countries' service. Let us note that 
the Russian military action was prece<greek-l>e deg.ded by the 
Georgian military attack, which violated a long-term truce, and 
while I certainly would agree that it was a disproportionate 
response, let us note such a disproportionate response could be 
predicted if Serbia sends their military into Kosovo.
    Chairman Berman. Would the gentleman yield just for 1 
second?
    Mr. Rohrabacher. As long as it is not off my time.
    Chairman Berman. It is only 10 seconds of your time.
    Mr. Rohrabacher. Okay. Go ahead.
    Chairman Berman. The Georgian move was in South Ossetia, I 
am unaware of a move in Abkhazia by the Georgians.
    Mr. Rohrabacher. Okay. All right. Well, I will take a look 
and see exactly how that proceeded, but one thing we do know is 
it wasn't dissimilar to what our position is in Kosovo and 
perhaps it wasn't all that different from what happened when 
Great Britain was in a dispute over the Falkland Islands and 
used a disproportionate response when the Argentineans 
attacked, and it would be wrong to say that Great Britain 
attacked the poor Argentineans and used force, and thus we 
should be suspect of Great Britain.
    It doesn't go. It is not consistent. We are either going to 
be consistent in our dealings with our dealing with the 
Russians, or they are not going to trust us. Let me ask a yes 
or no or a one-answer question from all the panelists. Which 
country represents the most dangerous long-term threat to 
American security and world peace? China or Russia? One answer. 
Write it down.
    Mr. Graham. Neither.
    Mr. Rohrabacher. Okay.
    Ambassador Ischinger. Same answer.
    Ms. McNamara. No comment.
    Mr. Trenin. Neither country, and certainly not Russia.
    Mr. Rohrabacher. Certainly not Russia?
    Mr. Trenin. Certainly not Russia.
    Mr. Rohrabacher. All right. Thank you very much. Let me 
note the courage of the last man to speak the truth when we are 
here to have an honest discussion. Let me tell you something. 
It is very clear that China is an emerging threat and a greater 
threat every day. We have headlines in the paper where we find 
out, and we talk about Russia's relationship with Iran, which 
we have pushed them into Iran's arms by excluding them from the 
EU market and the United States' market when they needed it the 
most.
    Let us note the Chinese, who we have totally open markets 
with, are now arming Iran, arming Iran and selling all kinds of 
weapons systems to Iran, and that is consistent with a pattern 
throughout the world. Yet, do we try to magnify any flaw of 
China? No. In fact, we are magnifying the flaws of Russia while 
accepting all of these things of China while sending over our 
technology and massive investment by our private sector.
    In fact, I would suspect that some of the technology that 
they are selling to Iran originated in the United States? Mr. 
Chairman, we have a totally inconsistent approach to China and 
Russia, and unless we understand that it is Russia who offers 
us some hope of a cooperative relationship because they have 
had the reform, and China has had no democratic reform and is 
in fact worse off now in terms of civil liberties than it was 
25 years ago that it is going to hurt our cause. It is going to 
hurt the cause of world peace. It is going to leave us in 
jeopardy.
    There are areas we can work with Russia on, the arctic is 
an example. Instead of trying to make that an international 
solution to what we are going to do in the Arctic, we should be 
working with Russia and have them work with us to find a 
formula that is good for Russia and good for us rather than 
just trying to establish a global solution, missile defense it 
has been said here quite often and let us note the threat that 
we face right now, not just China in the future, radical Islam 
is at our throats.
    They slaughter people in Russia, too. Our President didn't 
even bother to go and stand next to Putin when they murdered 
hundreds of its children a few years ago. When our people were 
lost, Russians have built a magnificent monument to the people 
that were lost in 9/11, to the victims of terrorism and didn't 
get so much as a thank you. Listen, we need to reach out to the 
Russians so they will be our friends, or we will pay a dear 
price because China is going to be our enemy.
    Chairman Berman. The gentleman from California, Mr. Costa, 
for a second round.
    Mr. Costa. Thank you very much, Mr. Chairman. On that 
cheerful note, we have talked a lot about what is right and 
what is wrong with our current policy with regards to Russia, 
and the inconsistencies I think clearly are there not only 
today but in the previous administration. Mr. Trenin, what 
would you suggest because I am always very focused in terms of 
setting the expectation bar at a level that is achievable, what 
do you think with this administration if you were to be 
advising is achievable here in the next couple of years?
    Mr. Trenin. Well, Mr. Costa, I think that it is clear that 
after the START follow-on treaty is signed, which I expect to 
happen very soon, the big thing of course will be its 
ratification, but on the diplomatic front, the big thing will 
be moving onto the next issues, and the next issues will be 
related to missile defense, and I think that turning a problem 
into an opportunity would be something that is both important, 
timely and achievable.
    Mr. Costa. What about Iran?
    Mr. Trenin. With regard to Iran, I think that the Russians 
have been moving toward a position that is closer to the 
position of the United States.
    Mr. Costa. What is achievable?
    Mr. Trenin. Well, I think the achievable thing, it does not 
depend on Russia. The problem is that as I sit here today, I 
see the Iranian leadership so split that they are essentially 
unable to reach out to the international community, and I am 
very, very worried about what will happen over Iran.
    Mr. Costa. Ms. McNamara, what do you think is achievable?
    Ms. McNamara. Over Iran, I don't think Russia is going to 
be any meaningful help to you whatsoever. I don't think it is 
in their interests to do so. They may eventually support 
sanctions, but the only sanctions they will support are going 
to be so watered down as to be meaningless. We have already had 
three rounds of sanctions against Iran.
    Mr. Costa. Are the sanctions won't affect them?
    Ms. McNamara. I mean, of course. They have----
    Mr. Costa. I mean, in things that they view critical in 
terms of----
    Ms. McNamara. They have a huge economic interest.
    Mr. Costa. Right.
    Ms. McNamara. But apart from that, they have geopolitical 
interest.
    Mr. Costa. Sure.
    Ms. McNamara. And I think the rise of Iran they see as a 
counter-balance to the United States' power in that region. I 
think in terms of sanctioning Iran, we have to go down a 
coalitions-of-the-willing approach, and I hope Germany will be 
part of that because they have 5,000 companies currently doing 
business in Iran.
    Mr. Costa. All right. So you think trade is achievable in 
the next couple of years?
    Ms. McNamara. Certainly, Russia wants to be a member of the 
World Trade Organization, and they want to get rid of the 
Jackson-Vanik Amendment. However, being a member of the 
international community means you have to be in good standing. 
I don't think the United States should give away things for 
free. I think in terms of taking a relationship forward, these 
should be on the table, but you have got to earn it.
    Mr. Costa. Yes. Do either of the two of you care to opine 
on what is achievable here in the next 2 years? Mr. Graham? Mr. 
Ischinger?
    Ambassador Ischinger. On Iran, I belong to the school of 
thought that does not think that sanctions will change a lot 
for a number of reasons, including the inability of the Iranian 
leadership to react to whatever we are doing, so I don't think 
that the sanctions issue will take us closer to a solution. I 
believe that there are a lot of things that are achievable, but 
they are in the area of bilateral United States-Russian 
relations, including missile defense, including arms control 
and a number of issues related----
    Mr. Costa. Incremental progress, yes. Mr. Graham?
    Mr. Graham. Building on that, I think there are a number of 
areas, nonproliferation. We are already working very closely 
with Russia on a lot of nonproliferation issues, securing 
fissile material inside Russia, the former Soviet space. That 
has been expanded. That is something that we can build on with 
the Russians, and both of us exercise global leadership. Civil 
nuclear, if the 123 Agreement is eventually resubmitted to the 
Congress, is ratified or allowed to go through, that would open 
up the possibility for cooperation on civil nuclear energy, 
very positive, an area where Russia has certain unique 
technologies we don't. It would be valuable doing a joint 
venture somewhere in a third country. All of this I think also 
creates an environment in which is easier----
    Mr. Costa. What you can build on.
    Mr. Graham. That we should build on but also helps us with 
Iran in that area as well.
    Mr. Costa. Right. Quickly before my time expires, I am 
concerned about the gaps in NATO defense and assets and forces 
and with their flat or declining defense how do expect NATO to 
continue to perform? Who wants to take a whack at it? One 
person.
    Ms. McNamara. I think you are absolutely right. There are 
only five countries in the whole NATO alliance who spend the 
benchmark of 2 percent of GDP on defense, and I think that has 
got to change. Will it change? I don't think so in the 
immediate future, so NATO has got to do better with what it has 
got. What we can't do is say we are going to have a second 
defense identity within the European Union to draw on those 
resources because most of the resources come from the member 
states, and so the worst thing that we could do is have a 
separate defense identify within the European Union because it 
is not additionality. It is taking away from NATO.
    Mr. Costa. Thank you.
    Chairman Berman. The time of the gentleman has expired. I 
know you guys are probably wanting to go somewhere else, but I 
want to just, if you don't mind, yield myself another 5 minutes 
to just pursue a couple of issues that were left dangling. 
Unfortunately, Ambassador Ischinger's most recent comment 
requires me as the sponsor of a piece of sanctions legislation 
vis-a-vis Iran to say you may be right, but I don't know that 
you are right.
    Absent an effort to get a meaningful international 
sanctions regime at the same time keeping the avenue for 
engagement open so that there is a diplomatic alternative to 
deal with this issue if the regime chooses to exercise it, 
without that kind of regime, you are left with only two 
consequences. One is living with a nuclear Iran and figuring 
out how to live with a nuclear Iran and all that means, and the 
other one is a military confrontation, and so it is not quite 
on the subject of our hearing, but the issue was raised about 
the French sale to Russia.
    In fact, I was asked to move a resolution on that subject 
through the committee. Ms. McNamara had a chance to respond, 
but no one else did. Do any of you have thoughts on either that 
sale or what our response or the NATO response should be to 
that sale? Mr. Trenin?
    Mr. Trenin. The sale is actually pretty controversial 
within Russia, and people say that this is a blow to the 
Russian domestic defense industry, not unheard of, but I think 
that most sensible Russians see it as a symbol of trust between 
Russia, and they underlined that, a major NATO power. To them, 
to those who are for the deal, the thing is that this will 
create a bond, a security relationship, not just between Russia 
and France, but between Russia and NATO, and I just wanted to 
highlight that.
    Chairman Berman. Mr. Graham?
    Mr. Graham. I will just second what Dmitri has just said. I 
agree that is important. It is important. It is important for 
building trust, but I also think it underscores as Dmitri said 
the problems that exist in the Russian defense industry, which 
is another reason why I think Russia doesn't pose the threat 
that many people here think it does.
    Chairman Berman. Ambassador?
    Ambassador Ischinger. Arms exports are almost always 
problematic. That is true in this case also, but when one 
weighs the pros and cons, I would definitely come down on the 
side of Dmitri and Tom. I think trust building is at this 
moment the most important point. Mr. Chairman, if I could just 
add one sentence to your question on the sanctions. I did not 
mean to indicate that I would be opposed to sanctions. I just 
have a great deal of hesitation that they will bring about a 
rapid solution of our problem in regard to Iran. Thank you.
    Chairman Berman. Ms. McNamara wants to respond to the 
responses.
    Ms. McNamara. Just very quickly. In terms of building trust 
with Russia, well your NATO partner should also be able to 
trust you, and there is absolutely massive push-back on this 
sale from many NATO allies, not least of all in Central and 
Eastern Europe. I think it would behoove France to take into 
account the trust it has built with its own NATO partners who 
it has an alliance guarantee with rather than those outside the 
alliance.
    Chairman Berman. Thank you. In the prepared testimony, we 
didn't spend much time or any time talking about it that I 
remember, there was sort of a reference to the Russian decision 
on the conventional forces agreement, and then I think it was 
Mr. Graham's testimony that suggested a way to deal with it is 
to restructure it not so much to focus on where Russian forces 
are stationed, but on a level of transparency on where they are 
stationed and notifications as a way of both getting that 
agreement sort of back into operation and an area to build 
trust in.
    I guess, Mr. Trenin, would the Russians be open to that 
kind of a suggestion and particularly important, I guess, for 
some of the Eastern European countries?
    Mr. Trenin. Well, I think we missed an opportunity earlier 
this decade when the CFE Treaty, the adapted CFE Treaty was not 
ratified, and I think that it needs to be made clear that the 
Russian----
    Chairman Berman. Refresh my memory.
    Mr. Trenin. There was a treaty signed in 1990 between the 
Soviet Union and the Warsaw Pact countries on the one hand and 
NATO on the other hand, so that is the treaty from which Russia 
pulled out. Russia pulled out of the treaty that operated on 
the assumption of the Warsaw Pact and NATO facing each other in 
Europe. Now, there was another treaty, the adopted treaty, 
concluded in 1999, which took account of the changes, 
geopolitical, geostrategic changes in Europe in the decade of 
the 1990s.
    The Russians as well as the Ukrainians, the Belarusians and 
the Kazakhs ratified that treaty, but no NATO country did 
because Russia had not withdrawn from Georgia and Moldova, and 
that I think----
    Chairman Berman. No NATO country ratified it.
    Mr. Trenin. No NATO country ratified that.
    Chairman Berman. It wasn't just our fault?
    Mr. Trenin. No, no.
    Chairman Berman. Okay.
    Mr. Trenin. I think that it is very important that the CFE 
Treaty is brought back or at least a system that guaranteed 
military security in Europe is brought back, and I think it is 
important to start negotiations, discussions on the new 
parameters of the treaty or the treaty that exists, the 1999 
treaty that was signed by NATO counties, but not ratified by 
those countries. Absent that treaty, we have a certain amount 
of insecurity in Europe, and it is in everyone's interest to 
minimize that amount.
    Chairman Berman. Anybody disagree with that? Okay. On that 
note of unanimity, I think we will thank you all very much for 
being here, very interesting, a lot more issues we could cover, 
but not enough time. So with that, the hearing is adjourned.
    [Whereupon, at 12:30 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
